     Department of Homeland Security





     FEMA Public Assistance Grant Funds Awarded to City 

           of Orlando, Florida - Hurricane Charley 





DA-12-10                                      February 2012

                                                                                     Office ofInspector General

                                                                                     U.S. Department of Homeland Security
                                                                                     Washington, DC 20528




                                                                                     Homeland
                                                                                     Security

MEMORANDUM FOR:                             Major P. (Phil) May
                                            R~gional Administrator, Region IV

                         ( / ...   . '. ..F. . e4y
                                   ~            ) .'l?
                                                    ral Em    J~.t. .g/.e.)'7nl.Cy M.t/
                                                         ..../,/                     apc~ement Agency
FROM:                       -'" "'" , ~,tf.~a~,          ef(~d~--1~'
                                            Assistant Inspector General
                                            Office of Emergency Management Oversight

SUBJECT:                                    FEMA Public Assistance Grant Funds Awarded to
                                            City of Orlando, Florida - Hurricane Charley
                                            FEMA Disaster Number 1539-DR-FL
                                            Audit Report Number DA-12-10

We audited public assistance funds awarded to the City of Orlando, Florida, (City) (FIPS Code
095-53000-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to federal
regulations and FEMA guidelines.

As of February 1, 2011, the City had received an award of $17.1 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Charley, which occurred in August 2004. The award provided 90% FEMA funding
for debris removal activities, emergency protective measures, and permanent repairs to buildings
and facilities. The award consisted of 31 large projects and 192 small projects. l

Our review focused on $13 .1 million awarded and claimed under 13 large projects and 37 small
projects after deductions for insurance (see Exhibit, Schedule of Projects Audited). Our testing
of small projects was limited to duplication of benefits and project implementation. The audit
covered the period August 11,2004, to January 25,2006, during which the City received
$10.3 million ofFEMAfunds under the projects reviewed. At the time of our audit, the City had
not submitted final claims on project expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accept~d government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to


I   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
provide a reasonable basis for our findings and conclusions based upon our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. We conducted this audit applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable federal regulations and FEMA guidelines; and performed other procedures considered
necessary to accomplish our audit objective. We did not assess the adequacy of the City’s
internal controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we did gain an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for
under the FEMA award.


                                     RESULTS OF AUDIT

The City accounted for project expenditures on a project-by-project basis as required by federal
regulation. However, the City’s claim included $809,052 of costs that FEMA should disallow
because they are covered by insurance.

Section 312 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford
Act), as amended, prohibits the use of public assistance funds for damages covered by insurance.
Prior to our audit, FEMA reviewed $1,641,340 of project costs claimed by the City under 13
large projects and 37 small projects and disallowed $530,978 for activities covered by insurance.
We reviewed the City’s insurance policy, which included a detailed Schedule of Properties
identifying the location, building number, address, occupancy, construction structure, and
building and personal limit coverage for insured facilities. Based on our analysis of the
insurance policy and the scopes of work authorized under all projects, we identified an additional
$809,052 of costs claimed for activities covered by the City’s insurance policy. Therefore, we
question the $809,052.

City Response. City officials disagreed with our finding, saying that the costs should be allowed
because FEMA had accepted them during closeout of the projects.

OIG Response. We disagree. The Stafford Act prohibits the use of public assistance funds for
damages covered by insurance. FEMA’s review of project costs for insurance coverage did not
include all of the projects included in our audit scope. Further, the review or acceptance of costs
by a federal agency does not affect its right to disallow costs and recover funds on the basis of a
later audit (44 CFR 13.51(a)).




                                                 2

                                   RECOMMENDATION


We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Disallow the $809,052 (federal share $728,147) of costs that are
   ineligible for FEMA funding because they are covered by insurance.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided a written summary of our finding and recommendation in advance to these officials and
discussed them at the exit conference held on September 21, 2011. City officials’ comments are
included in the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, Felipe Pubillones,
Salvador Maldonado-Avila, Larry Jones, and Angelica Esquerdo.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.


cc: Administrator, FEMA
    Audit Liaison, FEMA Florida Recovery Office
    Audit Liaison, FEMA Region IV
    Audit Liaison, FEMA (Job Code G-11-025)
    Audit Liaison, DHS




                                               3

                                                                             EXHIBIT

                            Schedule of Projects Audited 

                         August 11, 2004, to January 25, 2006 

                              City of Orlando, Florida 

                         FEMA Disaster Number DR-1539-FL 


                                  Amount
                               Disallowed by
                   Gross        FEMA for          Net         Amount
   Project        Amount         Insurance      Amount       Claimed/       Amount
   Number         Awarded        Coverage       Awarded      Reviewed      Questioned
Large Projects:
     578          $4,497,665              $0    $4,497,665    $4,497,665            $0
     751           2,707,983               0     2,707,983     2,707,983             0
     997             232,000               0       232,000       232,000        14,281
    1679             244,690               0       244,690       244,690             0
    5068             208,589               0       208,589       208,589             0
    5147           1,066,835               0     1,066,835     1,066,835             0
    5408             952,828               0       952,828       952,828             0
    5411             879,744         447,336       432,408       432,408       432,408
    5413              66,638               0        66,638        66,638        65,947
    6119             241,139               0       241,139       241,139        35,578
    6126             429,071               0       429,071       429,071             0
    6228             184,045               0       184,045       184,045        26,561
    6997           1,337,794               0     1,337,794     1,337,794             0
Small Projects:
    1713             38,045                0       38,045         38,045        35,135
    1903              4,092                0        4,092          4,092         4,049
    1938              1,535                0        1,535          1,535         1,519
    2063              3,015                0        3,015          3,015         2,984
    2800             15,657                0       15,657         15,657         4,018
    2802              5,327                0        5,327          5,327         5,272
    2807              5,688                0        5,688          5,688         5,629
    3309              7,861                0        7,861          7,861         7,780
    3311              2,845                0        2,845          2,845         2,816
    3313              9,226            6,745        2,481          2,481         2,481
    3517              2,235                0        2,235          2,235         2,212
    3858              8,687                0        8,687          8,687         8,597
    3874              1,308                0        1,308          1,308         1,295




                                           4

                                                           EXHIBIT (Continued)

                     Schedule of Projects Audited 

                  August 11, 2004, to January 25, 2006 

                       City of Orlando, Florida 

                  FEMA Disaster Number DR-1539-FL 


                           Amount
                        Disallowed by
             Gross       FEMA for         Net          Amount
Project     Amount        Insurance     Amount        Claimed/      Amount
Number     Awarded        Coverage     Awarded        Reviewed     Questioned
 4426         $13,189               $0    $13,189        $13,189        $3,420
 4520           2,496                0      2,496          2,496           684
 4621          27,168                0     27,168         27,168           246
 4792           4,988            3,166      1,822          1,822           427
 4914           4,892                0      4,892          4,892         4,892
 5824          50,865           13,058     37,807         37,807         8,041
 5826           2,058                0      2,058          2,058           312
 5885          45,900                0     45,900         45,900        22,661
 5891           2,840                0      2,840          2,840           430
 5924          95,031           43,678     51,353         51,353        51,353
 5975           4,275                0      4,275          4,275         4,164
 6079          34,684            1,126     33,558         33,558         4,101
 6152           5,528                0      5,528          5,528         1,056
 6176           4,545                0      4,545          4,545           314
 6223          23,368                0     23,368         23,368         8,636
 6225          36,386                0     36,386         36,386         9,688
 6253          14,552            3,134     11,418         11,418           507
 6257           3,743                0      3,743          3,743         3,164
 6352           4,239                0      4,239          4,239         1,204
 6353          10,567            2,465      8,102          8,102         8,102
 6435          29,751                0     29,751         29,751         1,169
 6459          13,659           10,270      3,389          3,389         3,389
 6493           1,665                0      1,665          1,665           354
 6513          26,843                0     26,843         26,843        12,176
 Total    $13,617,774        $530,978 $13,086,796    $13,086,796     $809,052




                                   5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
